               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        Efficiency of Customer Service
                  Operations

                       Audit Report




                                              August 17, 2012

Report Number EN-AR-12-003
                                                                             August 17, 2012

                                               Efficiency of Customer Service Operations

                                                             Report Number EN-AR-12-003




BACKGROUND:
Our objective was to assess the overall           managers were trained to use the
efficiency of customer service                    reports. The Postal Service could have
operations. Such operations include the           saved $114 million in FY 2011 if all
sale of products and services at post             customer service units had achieved the
offices, stations, and branches. In fiscal        goal of 88 percent.
year (FY) 2011, the U.S. Postal Service
spent almost $6.3 billion (about                  WHAT THE OIG RECOMMENDED:
9 percent of total expenditures) on               We recommended districts develop and
customer service operations.                      implement an action plan to better use
                                                  workhours and implement best practices
The Postal Service uses various                   at applicable customer service units. We
systems and reporting tools to track and          also recommended management
measure efficiency in its customer                provide training as needed to customer
service operations. The Customer                  service managers that would enable
Service Variance program uses a                   them to effectively use available reports
standardized methodology, based on                and tools. Finally, we recommended
the unit’s projected workload and target          management require customer service
productivity, to determine the number of          unit managers to use the available
workhours a unit should use.                      reports and tools to allocate their
                                                  resources based on the projected
WHAT THE OIG FOUND:                               workload.
While the Postal Service has improved
its customer service efficiency, units still
performed below the national efficiency
performance goals of 88 percent for
FYs 2010 and 2011, and 90 percent for
FY 2012. Opportunities exist for                  Link to review the entire report
managers to improve performance by
implementing best practices at customer
service units. Additionally, managers at
customer service units are not fully
using available reports as tools to
manage operations. These conditions
occurred because managers did not
match resources against their workload,
senior managers did not promote the
use of available reports, and not all
August 17, 2012

MEMORANDUM FOR:            DEAN J. GRANHOLM
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS

                               E-Signed by Janet Sorensen
                              VERIFY authenticity with e-Sign




                           for
FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue & Systems

SUBJECT:                   Audit Report – Efficiency of Customer Service Operations
                           (Report Number EN-AR-12-003)

This report presents the results of our audit of the Efficiency of Customer Service
Operations (Project Number 11XG053EN000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Sean D. Balduff, director;
Retail, Business, and International, or me at 703-248-2100.

Attachments

cc: James J. Boldt
    Jeffrey C. Day
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management
Efficiency of Customer Service Operations                                                                          EN-AR-12-003



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Matching Workhours with Workload ................................................................................ 2

Implementing Best Practices ........................................................................................... 3

Management Reports ...................................................................................................... 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impact ....................................................................................... 11

Appendix C: Management’s Comments ........................................................................ 12
Efficiency of Customer Service Operations                                                                 EN-AR-12-003


Introduction

This report presents the results of our audit of the efficiency of customer service
operations (Project Number 11XG053EN000). Our objective was to assess the overall
efficiency of customer service operations. This self-initiated audit addresses operational
risks. See Appendix A for additional information about this audit.

Customer service operations (also referred to as Function 4 operations 1) include
customer service activities at post offices (PO), stations, and branches. 2 These activities
include automated and manual mail distribution, retail window and vending equipment
services, central forwarding system operations, and miscellaneous administrative
activities. Policies, procedures, and various resources have been established to enable
managers to efficiently manage Function 4 operations. The U.S. Postal Service uses
various systems and reporting tools to track and measure efficiency in its customer
service operations. The Customer Service Variance (CSV) 3 Program uses a
standardized methodology based on projected mail volumes and target productivities to
calculate earned workhours. 4 Reports compare earned workhours with actual
workhours to produce a CSV achievement rate.

In addition, management recently developed a staffing and scheduling tool (SST)5 to
assist managers at customer service units with scheduling staff workhours.
Management presented the SST to area managers in March 2012 and plans to
demonstrate the tool’s value to field managers during the fourth quarter, fiscal year (FY)
2012.

Current economic conditions, along with increased competition from electronic
communications, have significantly reduced mail volumes and retail transactions,
making it even more important for these resources to be used effectively and efficiently.
Evaluating daily workload at customer service units is essential for managers to
determine appropriate workhours, skills needed, and equipment requirements. Senior
management at the U.S. Postal Service assesses the customer service unit operations
based on how well managers manage their resources to meet earned workhours.

Conclusion

The Postal Service has improved operational efficiency in customer service operations.
Specifically, overall operational efficiency increased from 79 percent to 86 percent from

1
  Function 4 is the financial term used to identify customer service operations within the Postal Service’s activities.
2
  Table 1 documents the number of units in our scope by fiscal year.
3
  A management tool that provides earned workload using nationally established factors. See Table 2 for additional
information related to CSV.
4
  Earned workhours are Postal Service-developed standard time rates applied to operations for specific mail
processing tasks.
5
  The SST uses information from existing staffing and reporting tools to simplify the process of matching workhours
with projected workload. The SST also has reporting capabilities that enable the user to identify the root cause of a
problem by drilling down to the employee data level.

                                                            1
Efficiency of Customer Service Operations                                                            EN-AR-12-003


FY 2010 through the second quarter of FY 2012. However, the Postal Service could
further improve the efficiency of customer service operations by:

     More accurately matching workhours with workload.
     Implementing best practices.
     Increasing training and use of available management reports.

Based on FY 2011 data, the Postal Service could have reduced 2.9 million workhours
and realized a cost avoidance of about $114 million if it achieved its national CSV goal
of 88 percent in operational efficiency during FY 2011. See Appendix B for the monetary
impact calculation.

Matching Workhours with Workload

Senior management is responsible for developing a national CSV performance goal
each year. The CSV performance goal was 88 percent for FYs 2010 and 2011 and
90 percent for FY 2012. Managers at customer service units are responsible for
managing resources to achieve these performance targets. However, based on data
from FYs 2010 through 2012, at least 5,002 or 43 percent of the customer service units
(POs, stations, and branches) performed below the CSV performance achievement
established for FYs 2010, 2011, and 2012. 6 See Table 1.

                         Table 1. Performance of Customer Service Units

                                                             Units Below
                                                                 CSV
                                               Total         Performance                 Relative
               Fiscal Year                     Units             Goal                   Percentage
         2010 (Quarters 3 and 4)                12,145                5,710                       47%
         2011                                   11,650                5,002                       43%
         2012 (Quarters 1 and 2)                11,776                5,097                       43%
       Source: CSV Archive and OIG Analysis.

This occurred because not all managers at customer service units knew how to
effectively use managerial reports to assess resources against their workload and
manage resources in response to workload changes. In addition, managers we
interviewed at five of the eight sites did not provide plans for improving Function 4
efficiency. Managing resources to meet workload fluctuations could have improved
productivity at customer service units and saved the Postal Service about $114 million
in FY 2011.




6                                                                                             nd
    Table 3 documents historical national performance achievement from FYs 2009 through 2012, 2    Quarter.

                                                         2
Efficiency of Customer Service Operations                                                           EN-AR-12-003


Implementing Best Practices

Managers at customer service units did not always implement best practices to improve
efficiency. We judgmentally selected eight customer service units7 with seven or more
full-time equivalent (FTE) employees and performed site visits. These sites had a CSV
performance achievement ranging from 59 to 98 percent.

During our site visits to four high performing customer service units, we identified the
following best practices:

   Managers surveyed the work floor periodically to assess the workload and determine
    resources needed.

   One district initiated a Function 4 review 8 to evaluate operational efficiency at the
    customer service unit.

   A lobby director9 or assistant was used to help reduce customer wait time in line
    during busy periods.

   At one site, a manager improved the sorting of packages by reducing the number of
    times the packages were handled.

   Managers at four sites made effective use of non-traditional full-time (NTFT) and
    postal support employees (PSEs) 10 to help reduce labor hours while increasing
    flexibility within their workforce.

During our site visits to the four lower performing customer service units, we identified
other practices that could negatively affect CSV performance. For example:

   Managers on different tours and sections11 did not routinely discuss mail volume and
    staffing needs, which could result in inefficient assignment of employees. In addition,
    managers were not always aware of on-hand or incoming mail volume, making it
    difficult to determine their staffing requirements.

   A lack of communication between managers at the processing plant and the
    associated customer service units contributed to automation compatible mail being
    worked in manual operations. We observed manual sorting of mail at two customer
    service units that should have been sorted at the processing plants.


7
  We chose at least one unit from each area. See Table 4 for a listing of the sites we visited.
8
  Function 4 reviews assess customer service unit operations and provide guidance to unit managers using CSV
tools to successfully close the gap between the current and expected performance.
9
  The lobby director is a knowledgeable retail employee placed in the retail lobby to greet customers, determine
customer needs, and assist customers in selecting services and preparing paperwork before they reach the retail
counter. The objective of the lobby director program is to reduce the customer’s waiting time.
10
   Employees categorized as NTFT and PSE can work between 30 and 48 hours a week in Function 4 operations.
11
   A section is a contractual term that divides a postal facility into work areas (sections) that employees and
supervisors are assigned to.

                                                         3
Efficiency of Customer Service Operations                                                              EN-AR-12-003


      Mail and packages for pick up (Notice Left operations)12 were located away from
       retail window operations and not always organized in a manner that facilitated easy
       retrieval. This increased the customers’ wait time in line while clerks spent extra time
       searching for the mail.

Not all customer service units we visited implemented the best practices mentioned
previously. This occurred because managers at the customer service units relied on
their experience to schedule resources and not on the projected workload. Effective
implementation of best practices at units, where applicable, could reduce workhours
and improve operational efficiency.

Management Reports

The Postal Service provides reports from various systems to help customer service
managers allocate their resources based on the customer service unit’s projected
workload. Table 2 lists examples of these systems:

                      Table 2. Tools for Managing Function 4 Operations

                Name                                              Description
                                         Developed to provide earned workload using nationally
                                         established factors. Managers can use the reports
     CSV
                                         generated from this model to determine an efficient
                                         number of employees to support the earned workload.
                                         Designed to reflect the daily impacts of workload
     Customer Service Adjusted
                                         changes. This tool assists managers with scheduling
     Workhours
                                         customer service employees.
     Customer Service Staffing           Developed to improve operational efficiency by
     Opportunity Model                   identifying earned workhours and complement.
                                         Designed to identify opportunities to increase revenue,
     Window Operations Survey            match workhours to earned workload, and assist with
                                         budget forecasting.
                                         Developed to assist managers in the preparation and
     SST
                                         tracking of their staff’s workhours.

These reports provide data that assist customer service unit managers to properly staff
and efficiently manage workload. However, we found customer service managers at
three sites did not always use these reports when developing work schedules. This
occurred because unit managers did not know how to generate the available reports
and did not understand the value of using the reports for scheduling purposes. Effective
use of these systems and reports could help managers efficiently allocate resources by
matching unit workload with earned workhours.

Recommendations

12
  Notice Left is used when a letter carrier cannot complete an attempted delivery of a mailpiece on the route,
because no one is available to accept delivery, for those items requiring physical delivery to an individual.

                                                          4
Efficiency of Customer Service Operations                                   EN-AR-12-003




We recommend the vice president, Delivery and Post Office Operations:

1. Require areas to develop and implement an action plan to better match actual
   workhours with earned workhours.

2. Implement best practices at applicable customer service units.

3. Provide training as needed to customer service managers that would enable them to
   effectively use managerial reports and tools.

4. Require customer service unit managers to use managerial reports and tools in
   allocating their resources based on the customer service unit’s projected workload.

Management’s Comments

Management generally agreed with the precept of our report and monetary impact, but
took exception to our statement that some units underperformed because managers did
not know how to effectively use managerial reports. During subsequent
communications, management also agreed with each of our recommendations.
Management stated they have developed a plan to implement the SST nationwide,
which incorporates best practices for Function 4 activities. Management also stated they
will provide training to customer service managers as needed that will enable them to
effectively use managerial reports and tools. In a follow-up discussion with
management, we confirmed the use of the SST will be required for all customer service
managers, and all corrective actions will take place by the end of FY 2013.

Management did not agree some units underperformed because managers did not
know how to effectively use managerial reports to assess resources against their
workload and manage resources in response to workload changes. While they agreed
with the cause in principle, they stated our review conducted at four poor performing
offices did not provide a statistically relevant assessment.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report. Regarding management’s disagreement with the
cause related to the overall conclusion, we believe we obtained sufficient evidence for
our conclusion. Specifically, we observed and assessed operations at four low and four
high performing offices. In addition, we interviewed customer service operations
managers at the eight offices and obtained their input for the cause. We believe our
assessment was sufficient and agree with management’s statement that the reasons for
failing to achieve the target vary among the offices.


                                            5
Efficiency of Customer Service Operations                                  EN-AR-12-003


The OIG considers recommendations 1 and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            6
Efficiency of Customer Service Operations                                                   EN-AR-12-003


                                   Appendix A: Additional Information

Background

Mail volume has declined by more than 43 billion pieces in the last 5 years, and it is
likely to continue declining. First-Class Mail declined 36 percent in the same timeframe,
and nearly 50 percent in the past 10 years. This decline has created a substantial
reduction in workload within the Postal Service’s processing network. The Postal
Service spent almost $6.3 billion (about 9 percent of total expenditures) in FY 2011 on
Function 4 operations.

The Postal Service compiles Function 4 workhour data at POs, stations, and branches.
The workhour data is categorized into labor distribution codes by functional category.
Categories include automated and manual distribution of mail, retail window and
vending equipment services, central forwarding system operations, and miscellaneous
administrative activities.

Table 3 shows Function 4 workhours decreased 15 percent from 157 million in FY 2009
to 134 million in FY 2011. Although workload volume declined by 48 percent,
operational efficiency (earned workhours divided by actual workhours) has increased
from 79 percent to 86 percent during the same timeframe.

 Table 3. Volume, Workhours, and Earned Workhours Comparison Since FY 2009

                                     Annual                          Annual
 Fiscal                                             Actual                      Earned     Performance
                   Volume            Percent                         Percent
  Year                                             Workhours                   Workhours   Achievement
                                     Change                          Change
     2009      73,504,685,201                      157,259,931               124,203,894           79%
     2010      54,325,966,173         26.09%       141,135,752        10.25% 118,533,549           84%
     2011      42,278,711,579         22.18%       134,166,084         4.94% 115,238,926           86%
     2012      19,414,643,322                       71,858,487                62,803,111           87%
     Total                            48.27%                          15.19%
*Source: CSV Archive and OIG analysis

Although the Postal Service has shown improvement since FY 2009, actual workhours
used for Function 4 activities still exceeded the number of hours earned, which
prevented some units from meeting the established performance goal.

Previous American Postal Workers Unions13 contractual provisions included limits on
the Postal Service’s ability to manage the workforce and adjust quickly to changes in
workload. Until recently, these contractual limitations did not allow unit managers the
flexibility to schedule Function 4 workhours based on variable volumes and
transactions. However, the most recent collective bargaining agreement (CBA) includes
two new positions that enable managers to increase the number and use of non full -
 time workers. This flexibility was made possible with the creation of the NTFT and PSE
positions. The number of PSEs used for Function 4 operations within a district may not

13
     American Federation of Labor-Congress of Industrial Organizations.

                                                           7
Efficiency of Customer Service Operations                                                    EN-AR-12-003


exceed 20 percent of the total number of career clerk craft employees in the district.
PSEs have the flexibility to perform distribution, retail window, and custodial activities. 14

Objective, Scope, and Methodology

Our objective was to assess the overall efficiency of customer service operations.

To accomplish our objective, we:

    Interviewed the manager of Customer Service Standardization at Postal Service
     Headquarters to obtain information on policies and procedures related to matching
     workhours to workload, guidance on improving performance, and developing
     efficiency information on operating units.

    Reviewed applicable policies and procedures and other pertinent documentation.

    Obtained necessary access to Postal Service systems.

    Obtained a universe of Postal Service Cost Ascertainment Group (CAG) A-G
     customer service units 15 with their corresponding actual and earned FTEs and
     overtime data for FY 2010 (3rd and 4th Quarters), FYs 2011, and 2012 (1st and 2nd
     Quarters).

    Eliminated units with one FTE or fewer as well as units that did not have any
     customer service operations.

    Identified the opportunity hours for each fiscal year by subtracting the adjusted
     earned hours from the total actual hours.

    Judgmentally selected and visited four high performing units to observe operations,
     interview employees, and identify best practices.

    Judgmentally selected and visited four low performing units to observe operations
     and interview employees to determine the reasons why they were underperforming.

    Discussed the best practices and low performing units with Postal Service
     Headquarters customer service managers to identify initiatives they have in place or
     planned to improve performance.

To determine whether managers had effectively implemented best practices, we
judgmentally 16 selected eight customer service units. We visited these offices,
interviewed Postal Service officials, and observed operations to identify best practices.
Table 4 shows the sites visited and their percentage of performance achieved.


14
   NTFT and PSE positions are not limited to those activities listed.
15
   CAG A-G is a method that classifies POs according to mail volume and revenue generated.
16
   We selected customer service sites from each area and had seven or more FTEs.

                                                       8
Efficiency of Customer Service Operations                                                          EN-AR-12-003


                                     Table 4. List of Sites Visited

                                          High Performing Units
                                                                                  % Performance
            Area               District                Unit Name                   Achieved 17
                                                                                            97.82%
                                                                                            88.06%

                                                                                                 86.24%
                                                                                                 85.17%
                                           Low Performing Sites

                                                                                                 75.01%


                                                                                                 66.99%

                                                                                                 62.21%
                                                                                                 58.89%
     Source: Postal Service and OIG analysis

We conducted this performance audit from September 2011 through August 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We relied on data obtained
from eFlash 18 and CSV. We did not audit the eFlash and CSV systems but performed
limited data integrity tests to support our data reliance. We discussed our observations
and conclusions with management on June 13, 2012, and included their comments
where appropriate.




17
   Percentage performance achieved is determined by dividing earned workhours by actual workhours.
18
   eFlash provides weekly workhours and volumes. It combines data from delivery, mail processing, employee
relations, labor relations, and finance.


                                                        9
Efficiency of Customer Service Operations                                  EN-AR-12-003




Prior Audit Coverage

Efficiency of Retail Customer Service Operations (Report Number MS-AR-10-004,
dated July 28, 2010). We reported that management did not effectively implement best
practices at POs, stations, and branches; business mail acceptance operations did not
always have sufficient workload to match workhours; and union contract provisions
limited the Postal Service’s ability to manage workload.

We recommended that management implement best practices, explore opportunities to
consolidate business mail acceptance operations, periodically evaluate operating
efficiency and adjust resources in response to workload changes, and redeploy
employees to facilities where there is sufficient workload to support the workhours.

Management agreed with the recommendations and planned actions were considered
appropriate.




                                            10
Efficiency of Customer Service Operations                                                            EN-AR-12-003


                                    Appendix B: Monetary Impact

             Recommendation                        Impact Category                     Amount
                   1                              Questioned Costs19                 $285,725,051

Monetary Impact Methodology

The national CSV performance target set by senior management was 88 percent for
FYs 2010 and 2011, and 90 percent for FY 2012. To determine the monetary impact,
we:

    Identified customer service units categorized as CAG A-G.

    Eliminated customer service units with one FTE or fewer and no customer service
     operations.

To identify the opportunity workhours, we:

    Determined the total earned FTEs and the total actual FTEs for each fiscal year.

    Converted the total earned and actual FTEs to total earned and actual workhours. 20

    Adjusted the earned workhours by 88 percent for FYs 2010 and 2011, and
     90 percent for FY 2012 and subtracted the adjusted earned workhours from the
     actual workhours.

To calculate the monetary benefits, we multiplied the opportunity workhours by the
applicable overtime rate for each fiscal year. 21 Table 5 shows the calculated monetary
savings the Postal Service could have obtained if all customer service units had
achieved a CSV performance of 88 percent in FYs 2010 and 2011, and a 90 percent in
FY 2012.
                       Table 5. Monetary Impact by Fiscal Year

                                          Number of
           Fiscal Year                      Units              Total Hours              Total Dollars
     2010 (Quarters 3 and 4)                   11,220            2,417,667                 $ 94,168,115
     2011                                      10,831            2,930,193                   114,599,846
     2012 (Quarters 1 and 2)                   10,579            1,968,213                    76,957,112
                       Total                                     7,316,072                 $285,725,051




19
   Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, etcetera. May be
recoverable or unrecoverable. Usually a result of historical events.
20
   1,738 hours is the number of workhours in 1 year per full-time employee based on Postal Service data. We used
1,738 for FY 2011, and 869 (half a year) for FYs 2010 and 2012.
21
   The overtime rates for FYs 2010, 2011, and 2012 were $38.95, $39.11, and $39.10, respectively.

                                                        11
Efficiency of Customer Service Operations                      EN-AR-12-003


                           Appendix C: Management’s Comments




                                            12
Efficiency of Customer Service Operations        EN-AR-12-003




                                            13
